TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Delays in Transferring Innocent Spouse
                Claims Have Resulted in Some Inappropriate
                             Collection Actions



                                      September 14, 2007

                              Reference Number: 2007-40-175




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                      DEPARTMENT OF THE TREASURY
                                                             WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    September 14, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                             Michael R. Phillips
                                   Deputy Inspector General for Audit

 SUBJECT:                          Final Audit Report – Delays in Transferring Innocent Spouse Claims
                                   Have Resulted in Some Inappropriate Collection Actions
                                   (Audit # 200740005)

 This report presents the results of our review to evaluate the controls over forwarding Innocent
 Spouse1 claims for processing. This audit was included in our Fiscal Year 2007 Annual Audit
 Plan.

 Impact on the Taxpayer
 The Cincinnati Centralized Innocent Spouse Operations (CCISO) in Florence, Kentucky, was
 created to ensure Innocent Spouse claims were processed accurately, timely, and consistently.
 Many of the Innocent Spouse claims received by various Internal Revenue Service (IRS)
 campuses and/or field functions were received in the CCISO for processing more than
 30 calendar days2 after initial receipt by the IRS. Extended delays in transferring Innocent
 Spouse claims increase the risk that the IRS will take against taxpayers some inappropriate
 collection actions that should have been prevented.

 Synopsis
 Our analysis of the Innocent Spouse Tracking System determined that various IRS campuses
 and/or field functions took more than 30 days (74 days average) to forward to the CCISO

 1
     See Appendix V for a glossary of terms.
 2
     Unless otherwise stated, all days referred to in this report are calendar days.
                            Delays in Transferring Innocent Spouse Claims Have
                             Resulted in Some Inappropriate Collection Actions



7,765 (23 percent) of the 33,389 Innocent Spouse claims they had received in Fiscal Years 2003
through 2006. Review of a sample of claims received in Fiscal Year 2006 and transferred to the
CCISO more than 30 days after initial receipt by the IRS showed 71 percent were handled by
2 or more functions.
Once the CCISO receives an Innocent Spouse claim, it is required to systemically control the
taxpayer’s account within 15 days unless the claim fails to meet the basic requirements for
processing.3 It is critical for this control to be input timely, to ensure no inappropriate collection
actions4 are taken on the taxpayer requesting relief.

Recommendations
The Commissioner, Wage and Investment Division, should coordinate with the Commissioner,
Small Business/Self-Employed Division, to establish a 10-workday Innocent Spouse claim
transfer standard for claims not sent directly to the CCISO by taxpayers; establish an evaluation
and feedback process to identify transfer delay causes and trends for functions not meeting this
new standard; and issue a memorandum to all compliance, field assistance, and submission
processing employees reminding them of the importance of timely sending Innocent Spouse
claims to the CCISO and stopping inappropriate collection actions on all taxpayers requesting
Innocent Spouse relief. In addition, the Commissioner, Wage and Investment Division, should
ensure any money being held inappropriately as a result of these transfer delays is immediately
released to the taxpayers.

Response
IRS management agreed with the recommendations. Wage and Investment Division
management will coordinate with Small Business/Self-Employed Division management to
establish a 10-workday Innocent Spouse claim transfer standard for any claims not sent directly
to the CCISO by taxpayers. They will also develop a monthly evaluation and feedback report
that will include the noncompliant operation(s), original claim received date, and CCISO
received date and will list any incorrect collection action resulting from the lateness. This report
will be distributed monthly to the headquarters staff responsible for that operation and will be
monitored by the CCISO.




3
  Basic qualifications for processing an Innocent Spouse claim include, but are not limited to, (1) filed a joint tax
return, (2) properly signed the claim form, (3) made the claim for a tax year in which a tax return was filed, and
(4) provided a valid Social Security Number.
4
  These would include the filing of levies and the initiation of judicial proceedings. IRS policy also considers
withholding taxpayer refunds an inappropriate action.
                                                                                                                        2
                      Delays in Transferring Innocent Spouse Claims Have
                       Resulted in Some Inappropriate Collection Actions



Wage and Investment Division management will prepare a memorandum to be shared with the
Small Business/Self-Employed Division and all compliance, field assistance, and submission
processing function employees reminding them of the importance of (1) timely transferring
Innocent Spouse claims to the CCISO and (2) stopping inappropriate collection actions on all
taxpayers requesting Innocent Spouse relief. They also agreed to conduct an immediate review
to ensure there are no monies currently being withheld incorrectly on delayed claims from the
campus and field functions. Management’s complete response to the draft report is included as
Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                3
                               Delays in Transferring Innocent Spouse Claims Have
                                Resulted in Some Inappropriate Collection Actions




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Delays in Transferring Innocent Spouse Claims Have
          Resulted in Some Inappropriate Collection Actions.....................................Page 3
                    Recommendations 1 and 2: ................................................Page 6

                    Recommendation 3:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measures...............................................................Page 12
          Appendix V – Glossary of Terms .................................................................Page 14
          Appendix VI – Management’s Response to the Draft Report ......................Page 16
        Delays in Transferring Innocent Spouse Claims Have
         Resulted in Some Inappropriate Collection Actions




                  Abbreviations

CCISO       Cincinnati Centralized Innocent Spouse Operations
IRS         Internal Revenue Service
                            Delays in Transferring Innocent Spouse Claims Have
                             Resulted in Some Inappropriate Collection Actions




                                               Background

In Fiscal Year 1998, the Internal Revenue Service (IRS) created the Cincinnati Centralized
Innocent Spouse Operations (CCISO)1 in Florence, Kentucky, to ensure Innocent Spouse claims
were processed accurately, timely, and consistently. Taxpayers can submit their Innocent
Spouse claims either directly to the CCISO or through any IRS campus and/or field function,
which will forward the claims to the CCISO for processing. If a taxpayer is working with an IRS
employee and sends the Innocent Spouse claim directly
to the CCISO, there are procedures for notifying the
employee that an Innocent Spouse claim has been             The IRS received approximately
received. In Fiscal Years 2003 through 2006, the IRS        102,000  Innocent Spouse claims
received approximately 102,000 Innocent Spouse                in Fiscal Years 2003 through
                                                                          2006.
claims, 33,389 (33 percent) of which were transferred to
the CCSIO from various IRS campuses and/or field
functions.
To request Innocent Spouse relief, taxpayers must submit a Request for Innocent Spouse Relief
(Form 8857). Once an Innocent Spouse claim is received by the CCISO, it is screened to ensure
it meets the basic qualifications for processing.2 The claim is then reviewed by IRS employees
who have had specialized training in evaluating Innocent Spouse claims. These employees use
information supplied by the taxpayer and the Individual Master File to evaluate whether the
taxpayer qualifies for Innocent Spouse relief, relief by separation of liability, equitable relief, or
relief from liability arising from community property law.
In a prior Treasury Inspector General for Tax Administration report,3 we reported that Innocent
Spouse claims were not always timely processed because there were no timeliness requirements
for handling the Forms 8857 received by the various campuses and field functions. We
recommended the establishment of a timeliness benchmark for these Innocent Spouse claims.
However, the IRS disagreed that the benchmark was necessary, stating other actions it was
taking should significantly decrease the number of claims received in the campuses and field
functions.




1
  See Appendix V for a glossary of terms.
2
  Basic qualifications for processing an Innocent Spouse claim include, but are not limited to, (1) filed a joint tax
return, (2) properly signed the claim form, (3) made a claim for a tax year in which a tax return was filed, and
(4) provided a valid Social Security Number.
3
  Improvements Are Needed to Ensure Innocent Spouse Claims Are Accurately and Timely Processed
(Reference Number 2003-40-136, dated June 2003).
                                                                                                                 Page 1
                      Delays in Transferring Innocent Spouse Claims Have
                       Resulted in Some Inappropriate Collection Actions



This review was performed in the Reporting Compliance function at the Wage and Investment
Division Headquarters in Atlanta, Georgia, and the CCISO during the period August 2006
through May 2007. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                        Page 2
                            Delays in Transferring Innocent Spouse Claims Have
                             Resulted in Some Inappropriate Collection Actions




                                      Results of Review

Delays in Transferring Innocent Spouse Claims Have Resulted in
Some Inappropriate Collection Actions
Our analysis of the Innocent Spouse Tracking System determined that various IRS campuses
and/or field functions took more than 30 calendar days4 (74 days average) to forward to the
CCISO 7,765 (23 percent) of the 33,389 Innocent Spouse claims they had received in Fiscal
Years 2003 through 2006. Figure 1 provides the results of our analysis.
         Figure 1: Analysis of Innocent Spouse Claims Received by the CCISO
                   More Than 30 Calendar Days After Initial Receipt

                                      Claims Taking
                                       Longer Than              Percentage of
                 Total Claims           30 Days to           Claims Transferred          Average Days to
      Fiscal      Transferred         Transfer to the          Taking Longer             Transfer Claims
      Year       to the CCISO            CCISO                  Than 30 Days              to the CCISO
       2003           4,580                 1,430                      31%                       101
       2004           10,610                2,232                      21%                        74
       2005           9,552                 2,079                      22%                        70
       2006           8,647                 2,024                      23%                        61
      Totals          33,389                7,765                      23%                        74
    Source: Our analysis of the Innocent Spouse Tracking System.

To identify the cause of the delays in transferring Innocent Spouse claims, we selected and
analyzed a statistically valid attribute sample of 1295 of the 2,024 claims that were received in
the CCISO more than 30 days after initial receipt in various IRS campuses and/or field functions
in Fiscal Year 2006. We obtained copies of the Innocent Spouse claims; reviewed them for IRS
functional receipt dates, dates of routing memoranda, and fax dates; and determined the length of
time the various IRS functions kept the claims before forwarding them.


4
  Unless otherwise stated, all days referred to in this report are calendar days.
5
  For 19 (15 percent) of the 129 Innocent Spouse claim files sampled, the Forms 8857 had already been returned to
the taxpayers or forwarded to the appropriate functions for processing. As a result, we were able to perform a
detailed analysis on only 110 (85 percent) of the 129 Innocent Spouse claims.
                                                                                                           Page 3
                            Delays in Transferring Innocent Spouse Claims Have
                             Resulted in Some Inappropriate Collection Actions



    •    In 18 (14 percent) of the 129 cases, the Innocent Spouse claims went directly from the
         receiving functions to the CCISO. These claims were delayed an average of 57 days,
         with the longest delay being 119 days.
    •    In 57 (44 percent) of the 129 cases, the Innocent Spouse claims went through 2 functions
         before reaching the CCISO. These claims were delayed an average of 60 days, with the
         longest delay being 156 days.
    •    In the remaining 35 (27 percent) of the 129 cases, the Innocent Spouse claims went
         through 3 or more functions before reaching the CCISO. These claims were delayed an
         average of 73 days, with the longest delay being 145 days.
Applying these percentages to the Fiscal Year 2006 population of Innocent Spouse claims that
were received in the CCISO more than 30 days after initial receipt by the IRS, we estimate that,
at a minimum, 1,437 (71 percent) of the 2,024 delayed claims were handled by 2 or more
functions.
Once the CCISO receives an Innocent Spouse claim, its goal is to systemically control the
taxpayer’s account within 15 days unless the claim fails to meet the basic requirements for
processing. It is critical for this control to be input timely, to ensure no inappropriate collection
actions6 are taken on the taxpayer requesting relief. Extended delays in transferring an Innocent
Spouse claim increase the risk that the IRS will take against the taxpayer some inappropriate
collection actions that should have been prevented.
In 36 of the Innocent Spouse claims in our sample, IRS employees determined the claims either
did not meet the basic requirements for processing or were transferred to another function to
process as an Injured Spouse claim. Delays in receiving notification that their Innocent Spouse
claims were rejected may cause taxpayers to delay seeking payment options as an alternative to
enforced collection actions. Also, additional interest continues to accrue on these accounts until
they are fully paid by the taxpayers or determined to be uncollectible by the IRS.




6
 These would include the filing of levies and the initiation of judicial proceedings. IRS policy also considers
withholding taxpayer refunds an inappropriate action.
                                                                                                              Page 4
    ......


                           De/ays in Transferring Innocent Spouse C/ar'ms Have
                            Resu/ted in Some inappropriate Co//ectionActions



Instructions on Form 8857 tell taxpayers to       Figure 2: Fiiing instructions for Form 8857
send Innocent Spouse claims directly to the
CCISO unless (I) they are meeting with an               1
                                                   where To File                                                    1
IRS employee about an examination,                 Do not fie Form 8857 with your tax retrprn or fa it to the
                                                   IRS. knstead, see Mw.
examination appeal, or collection action or
(2) they have received a notice of                 IF ...                        THEN file Fomt 8857 A h . ..
deficiency and the 90day response period           You are meeling nitn an       That IRG empl.oyea;
has not yet expired. In those instances, the       IRS employee tw an
                                                   examhatiem, exnrrtkiatbn
taxpayers are to provide the IRS employee          ameat.
                                                    ..     or colkectim
with the Form 8857, and the employee is to         You received an IRS d c e     The lA5 e y e e named R the
forward it to the CCISO for processing.            ol defbiinc): and the          nc#ke. Attach a copy of the notice.
                                                   99-bay wriod . ~ e M s Ind     Do not f4.e Farm 8857 with IRe 7%
Based on detailed analysis of 110 sampled          ww heme         rwt e~pjred- court.
claims, we believe employees were either           Neither slluation above        Internal Rewnue Sate
(I) not properly identifying the Innocent          etadws to YOU                   st^ FWOF.P.Q. MX 1-3
                                                                                 Covhgtoh KY 41012
Spouse claims when they cane into the
employees' function andlor (2) not aware          Source: Z~~smcrions      for Fawn 8857.
that transfhng Innocent Spouse claims to
the CCISO is an IRS priority. &lost ofthe dehys occurred in various units in the campus
functions. Many of these misidentifications may have occurred because the Innocent Spouse
claims were attached to tax returns or other c o k ~ ~ o n d e n c These
                                                                      e.       causes were conf&ed by
interviews with various campus and field personnel.
IRS functions have procedures for handling the receipt and transfer of Innocent Spouse claims.
&lost functional procedures stress the importance of timely transferring the Innocent Spouse
claims to the CCISO. However, Innocent Spouse Program management does not provide
feedback to the originating function on untimely claim transfers.
After we discussed the resuits of our review with the IRS management, they revised Form 8857
instructions to tetl taxpayers to send their Innocent Spouse claims &rectly to the CCISO. We
believe this clarification may help to significantly reduce the number of Innocent Spouse claims
that are untimely transferred fiom the various campuses and/or field h c t i o n s to the CCISO.




Spouse relief. The IRS eventually released $43,112 back to some of the taxpayers and paid an




                                                                                                           Page 5
                         Delays in Transferring Innocent Spouse Claims Have
                          Resulted in Some Inappropriate Collection Actions



additional $850 in interest.7 However, it is not treating all taxpayers filing Innocent Spouse
claims fairly and consistently.
The Internal Revenue Code and IRS policy require that all taxpayers requesting relief be
protected from inappropriate collection actions while their Innocent Spouse claims are being
considered by the IRS. This guidance does not provide for an exclusion of Innocent Spouse
claims that are delayed due to IRS case transfer procedures. Delays in placing controls on the
accounts of taxpayers claiming Innocent Spouse relief have resulted in inappropriate collection
actions. The IRS should make every effort to quickly release these funds to the taxpayers and
ensure all taxpayers claiming Innocent Spouse relief are treated fairly. If controls are not timely
placed on taxpayers’ accounts, the IRS compliance functions will not know that certain
compliance actions should be stopped, which will result in taxpayers continuing to be burdened
with inappropriate collection actions.

Recommendations
Recommendation 1: The Commissioner, Wage and Investment Division, should coordinate
with the Commissioner, Small Business/Self-Employed Division, to establish a 10-workday
Innocent Spouse claim transfer standard for any claims not sent directly to the CCISO by
taxpayers. An evaluation and feedback process should be established within the CCISO to
identify transfer delay causes and trends for functions that are not meeting this new standard.
          Management’s Response: IRS management agreed with this recommendation.
          Wage and Investment Division management will coordinate with Small
          Business/Self-Employed Division management to establish a 10-workday Innocent
          Spouse claim transfer standard for any claims not sent directly to the CCISO by
          taxpayers. However, taxpayers who mail their forms to Submission Processing sites
          during peak processing from January to June each year and not to the CCISO, as
          required, may continue to realize some delays. Wage and Investment Division
          management will develop a monthly evaluation and feedback report, which will be
          maintained and monitored by the CCISO. The report will include the noncompliant
          operation(s), original claim received date, and CCISO received date. It will also list any
          incorrect collection action resulting from the lateness. This report will be distributed
          monthly to the headquarters staff responsible for that operation.
Recommendation 2: The Commissioner, Wage and Investment Division, should coordinate
with the Commissioner, Small Business/Self-Employed Division, to issue a memorandum to all
compliance, field assistance, and submission processing employees reminding them of the
importance of (1) timely transferring Innocent Spouse claims to the CCISO and (2) stopping
inappropriate collection actions on all taxpayers requesting Innocent Spouse relief.


7
    See Appendix IV.
                                                                                              Page 6
                      Delays in Transferring Innocent Spouse Claims Have
                       Resulted in Some Inappropriate Collection Actions



       Management’s Response: IRS management agreed with this recommendation.
       Wage and Investment Division management will prepare a memorandum to be shared
       with the Small Business/Self-Employed Division and all compliance, field assistance, and
       submission processing employees reminding them of the importance of (1) timely
       transferring Innocent Spouse claims to the CCISO and (2) stopping inappropriate
       collection actions on all taxpayers requesting Innocent Spouse relief.
Recommendation 3: The Commissioner, Wage and Investment Division, should ensure
employees immediately release to taxpayers requesting Innocent Spouse relief any money
inappropriately withheld as a result of delays in transferring their claims to the CCISO.
       Management’s Response: IRS management agreed with this recommendation.
       Wage and Investment Division management will conduct an immediate review to ensure
       there are no monies currently being withheld incorrectly on claims received late from
       campus and field functions. They will ensure the report, developed as part of their
       corrective action to Recommendation 1, is reviewed and monitored by the CCISO to
       ensure no monies are being inappropriately held. A monthly analysis will be conducted.




                                                                                        Page 7
                           Delays in Transferring Innocent Spouse Claims Have
                            Resulted in Some Inappropriate Collection Actions



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the controls over forwarding Innocent
Spouse1 claims for processing. Our limited tests of the reliability of data obtained from the
Innocent Spouse Tracking System did not identify any errors. We tested the reliability of the
data by scanning the data received for blank, incomplete, illogical, or improper data. In addition,
we traced 25 cases from the Innocent Spouse Tracking System to the source IRS files to ensure
accuracy. We did not perform any testing of internal controls over the system that was the
source of the data. To accomplish the objective, we:
I.      Determined how timely the various IRS functions were in forwarding Innocent Spouse
        claims to the CCISO.
        A. Analyzed the Fiscal Year 2006 Innocent Spouse Tracking System claim data to
           determine the number of calendar days it took for each claim to be received by the
           CCISO after initial receipt in a campus and/or field function.
        B. Determined where the delays occurred in the transfer of Innocent Spouse claims.
             1. Selected a statistically valid attribute sample of 1292 of the 2,024 claims that were
                received in the CCISO more than 30 calendar days3 after initial receipt by the IRS
                in Fiscal Year 2006. We used a 95 percent confidence level, a +5 percent
                precision rate, and a 10 percent estimated error rate.
             2. Reviewed the sampled case documentation to identify:
                 a. Which campus, field function, and/or employee(s) appeared to have caused
                    the claim transfer delays.
                 b. Any events documented in the case history that may have affected the timely
                    transfer of the claim.
        C. Determined what effect the delay in transferring the Innocent Spouse claims to the
           CCISO may have had on taxpayers and the Federal Government.



1
  See Appendix V for a glossary of terms.
2
  For 19 (15 percent) of the 129 Innocent Spouse claim files sampled, the Requests for Innocent Spouse Relief
(Form 8857) had already been returned to the taxpayers or forwarded to the appropriate functions for processing. As
a result, we were able to perform a detailed analysis on only 110 (85 percent) of the 129 Innocent Spouse claims.
3
  Unless otherwise stated, all days referred to in this report are calendar days.
                                                                                                           Page 8
                     Delays in Transferring Innocent Spouse Claims Have
                      Resulted in Some Inappropriate Collection Actions



         1. Analyzed the Individual Master File data for the 2,024 Innocent Spouse claims
            identified in Step I.B.1. to determine if any of these taxpayers were burdened by
            inappropriate collection actions (e.g., refund offsets, levies, or seizures) and/or if
            the Federal Government lost revenue as a result of delays in transferring these
            claims.
         2. Analyzed the Fiscal Years 2003 through 2006 Innocent Spouse claim data.
             a. Determined the number of calendar days it took to transfer each claim from
                the campus and/or field function to the CCISO (stratified results by
                0 days - 30 days and greater than 30 days).
             b. Trended the yearly results to determine if the IRS’ comment that timeliness
                benchmarks for campus and/or field function transfers are not required
                because other actions being taken “should significantly decrease the number
                of claims received in the field” is still correct.
II.   Identified the controls in place to ensure Innocent Spouse claims are timely transferred
      from the campuses and/or field functions to the CCISO.
      A. Determined the controls that have been established by the Innocent Spouse Program
         for transferring Innocent Spouse claims to the CCISO by interviewing program
         management and obtaining and reviewing documentation. We identified:
         1. The controls in place to monitor the transfer of Innocent Spouse claims from the
            campuses and/or field functions.
         2. The directions or guidance provided to the field functions regarding timely
            transfers of Innocent Spouse claims.
      B. Determined what controls have been established by the campuses and/or field
         functions for transferring Innocent Spouse claims by interviewing various campus
         and/or field personnel from those functions with the highest number of Innocent
         Spouse claims transferred to the CCISO and obtaining and reviewing documentation.
         We identified:
         1. The controls in place to monitor the transfer of Innocent Spouse claims from the
            campuses and/or field functions.
         2. The directions or guidance they have received or established regarding timely
            transfer of Innocent Spouse claims.
         3. The feedback that has been provided to them concerning untimely Innocent
            Spouse claim transfers.




                                                                                            Page 9
                     Delays in Transferring Innocent Spouse Claims Have
                      Resulted in Some Inappropriate Collection Actions



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Marybeth Schumann, Director
Bryce Kisler, Acting Director
Alan Lund, Acting Audit Manager
Kristi Larson, Lead Auditor
Sharon Summers, Senior Auditor
James Traynor, Senior Auditor
Jean Kao, Auditor
Craig Pelletier, Auditor




                                                                                   Page 10
                     Delays in Transferring Innocent Spouse Claims Have
                      Resulted in Some Inappropriate Collection Actions



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief, Headquarters Discretionary Examination, Wage and Investment Division
SE:W:CP:RC:EX (DISCR)
Field Director, Compliance Services (Andover), Wage and Investment Division
SE:W:CP:CS:AN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 11
                             Delays in Tiansfemmnginnocent Spouse Claims Have
                              Resulted in Some inappropriate Colktion Actions



                                                                                          Appendix IV

                                       Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

T Y Dand
      ~ Value of Outcome Measure:
a     Revenue Protection - Actua1;p
                                                                                   ksee page 31.

Methodolouv Used to Measure the Reporfed Benefit:
Based on an analysis of refunds issued durinnFisca1 Year 2006 to the spouses (or former




T w e and Value of Outcome Measure:
       Taxpayer Rights and Entitlements - Actual; $83,374 in funds inappropriately taken from
       5 1 taxpayers requesting Innocent Spouse relief during Fiscal Year 2006 (see page 3).

Methodolouv Used to Measure the Reporfed Benefit:
Based on an analysis of all 2,024 Fiscal Year 2006 Innocent Spouse claims that were received in
the CCISO more than 30 days after initial receipt by the IRS, the IRS inappropriately withheld
refunds andlor levied $83,3 74 from 5 1 taxpayers claiming Innocent Spouse relief.

T v ~ and
      e Value of Outcome Measure:
      Funds Put to Better Use - Actual; $850 in interest paid on funds inappropriately taken from
      taxpayers requesting Innocent Spouse relief during Fiscal Year 2006 (see page 3).



I
    See Appendix V for a glossary of terms.
'Unless otherwise stated, all days referred to in this report are calendar days.
                                                                                                   Page 12
                      Delays in Transferring Innocent Spouse Claims Have
                       Resulted in Some Inappropriate Collection Actions



Methodology Used to Measure the Reported Benefit:
Based on an analysis of all 2,024 Fiscal Year 2006 Innocent Spouse claims received in the
CCISO more than 30 days after initial receipt by the IRS, the IRS paid $850 in interest to
taxpayers claiming Innocent Spouse relief that had had their refunds inappropriately withheld
and/or levies on their accounts.




                                                                                         Page 13
                         Delays in Transferring Innocent Spouse Claims Have
                          Resulted in Some Inappropriate Collection Actions



                                                                                   Appendix V

                               Glossary of Terms

            Term                                            Definition
Campus                           The data processing arm of the IRS. The campuses process
                                 paper and electronic submissions, correct errors, and forward
                                 data to the Computing Centers for analysis and posting to
                                 taxpayer accounts.
Cincinnati Centralized           IRS function located in Florence, Kentucky, responsible for
Innocent Spouse Operations       the Innocent Spouse Program.
Equitable Relief                 A taxpayer that does not qualify for Innocent Spouse relief or
                                 relief by separation of liability may still be relieved of
                                 responsibility for a portion or the entire amount of tax,
                                 interest, and penalties through equitable relief. Unlike with
                                 Innocent Spouse relief or relief by separation of liability, the
                                 taxpayer can receive equitable relief from an understatement
                                 of tax or an underpayment of tax.
Individual Master File           The IRS database that maintains transactions or records of
                                 individual accounts.
Injured Spouse                   A taxpayer that filed a joint tax return and for whom all or
                                 part of his or her portion of the overpayment was, or is
                                 expected to be, applied (offset) to his or her spouse’s legally
                                 enforceable past-due Federal tax, State income tax, child or
                                 spousal support, or a Federal nontax debt (e.g., a student
                                 loan).
Innocent Spouse Program          IRS program responsible for determining if taxpayers qualify
                                 for Innocent Spouse relief, as well as determining if taxpayers
                                 qualify for relief by separation of liability, equitable relief, or
                                 relief from liability arising from community property law.
Innocent Spouse Relief           A taxpayer can be relieved of responsibility for paying tax,
                                 interest, and penalties if his or her spouse (or former spouse)
                                 improperly reported items or omitted items on their tax return.
Innocent Spouse Tracking         A computerized inventory system that tracks Innocent Spouse
System                           claims from receipt to closing.

                                                                                            Page 14
                      Delays in Transferring Innocent Spouse Claims Have
                       Resulted in Some Inappropriate Collection Actions




            Term                                         Definition
Levy                          A legal seizure of property to satisfy a tax debt.
Relief by Separation of       A taxpayer allocates (separates) the understatement of tax
Liability                     (plus interest and penalties) on his or her joint return between
                              the taxpayer and his or her spouse (or former spouse). The
                              understatement of tax allocated to the taxpayer is generally
                              the amount for which he or she is responsible. This type of
                              relief is available only for unpaid liabilities resulting from
                              understatements of tax. Refunds are not allowed.




                                                                                       Page 15
       Delays in Transferring Innocent Spouse Claims Have
        Resulted in Some Inappropriate Collection Actions



                                                  Appendix VI

Management’s Response to the Draft Report




                                                            Page 16
Delays in Transferring Innocent Spouse Claims Have
 Resulted in Some Inappropriate Collection Actions




                                                     Page 17
Delays in Transferring Innocent Spouse Claims Have
 Resulted in Some Inappropriate Collection Actions




                                                     Page 18
